<html>
<title> - CHILD INTERSTATE ABORTION NOTIFICATION ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
               CHILD INTERSTATE ABORTION NOTIFICATION ACT

=======================================================================



                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 2299

                               __________

                             MARCH 8, 2012

                               __________

                           Serial No. 112-87

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-214                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                             MARCH 8, 2012

                                                                   Page

                                THE BILL

H.R. 2299, the ``Child Interstate Abortion Notification Act''....     3

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................    15

                               WITNESSES

Teresa Stanton Collett, Professor of Law, University of St. 
  Thomas School of Law
  Oral Testimony.................................................    18
  Prepared Statement.............................................    21
The Very Rev'd. Katherine Hancock Ragsdale, President and Dean, 
  Episcopal Divinity School
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Michael J. New, Ph.D., Department of Social Sciences, University 
  of Michigan--Dearborn
  Oral Testimony.................................................    49
  Prepared Statement.............................................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Chairman, Committee on 
  the Judiciary..................................................    16

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution.....................    69
Prepared Statement of the Honorable Ileana Ros-Lehtinen, a 
  Representative in Congress from the State of Florida...........    71
Response to Post-Hearing Questions from Teresa Stanton Collett, 
  Professor of Law, University of St. Thomas School of Law.......    72
Response to Post-Hearing Questions from the Very Rev'd. Katherine 
  Hancock Ragsdale, President and Dean, Episcopal Divinity School    76
Prepared Statement of Americans United for Life, submitted by the 
  Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................    83
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution
    Prepared Statement of the National Latina Institute for 
      Reproductive Health........................................   104
    Prepared Statement of the American Civil Liberties Union 
      (ACLU).....................................................   109
    Letter in opposition to H.R. 2299, the ``Child Interstate 
      Abortion Notification Act''................................   115
    Prepared Statement of the Center for Reproductive Rights.....   117
    Letter in opposition to H.R. 2299, the ``Child Interstate 
      Abortion Notification Act''................................   134
    Prepared Statement of the National Abortion Federation.......   137
    Prepared Statement of the National Partnership for Women & 
      Families (PRCH)............................................   140
    Prepared Statement of the Physicians for Reproductive Choice 
      and Health.................................................   145
    Prepared Statement of the Reproductive Health Technologies 
      Project....................................................   149


               CHILD INTERSTATE ABORTION NOTIFICATION ACT

                              ----------                              


                        THURSDAY, MARCH 8, 2012

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:41 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trent Franks 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, King, Jordan, Nadler, 
Scott, and Quigley.
    Staff present: (Majority) Paul Taylor, Subcommittee Chief 
Counsel; Jacki Pick, Counsel; Sarah Vance, Clerk; (Minority) 
David Lachmann, Subcommittee Staff Director; and Veronica 
Eligan, Professional Staff Member.
    Mr. Franks. Good morning, and welcome to this Constitution 
Subcommittee hearing on H.R. 2299, the ``Child Interstate 
Abortion Notification Act.''
    Without objection, the Chair is authorized to declare the 
recess of the Committee at any time.
    The Child Interstate Abortion Notification Act, more 
commonly known as CIANA, is a very reasonable measure that 
would prevent the transportation of a minor across State lines 
in circumvention of a parental consent law that applies to a 
minor's abortion procedure. This law is consistently supported 
by 70 percent of the American people in national opinion polls.
    More than 30 States have made it clear through legislation 
that parents have the right to know whether their minor 
daughters are trying to undergo an abortion. Parents play a 
critical role in the well-being of their daughters, 
particularly in such a context. And I would quote the bill 
sponsor, Ms. Ros-Lehtinen, ``As a mother and a grandmother, I 
understand the importance of the unconditional love and support 
that parents can give to their children. This responsibility is 
nonnegotiable and nontransferable. This bill assures young 
women that they are not alone, if ever they find themselves 
contemplating undergoing an abortion.''
    Parental notification laws have proven to be effective at 
lowering the abortion rate among minors, and, therefore, they 
are effective at lowering the attending risks that accompany 
abortion.
    Abortion is a serious surgical procedure with serious 
physical and psychological risks, some of which can be 
especially detrimental when experienced at a young age. These 
include increased risks of breast cancer, extremely premature 
birth in subsequent pregnancy--that is, delivering at 28 weeks 
of gestation or less--and suicide.
    When a woman experiences an abortion early in life, she can 
lose the protective effect against breast cancer that full-term 
pregnancy provides through inherent changes in breast tissue. 
Many developed countries legalized abortion in the early 
1970's, and breast cancer rates have increased as much as 80 
percent since then in these same countries.
    Likewise, when a woman has one induced abortion, she is 50 
to 70 percent more likely to experience an extremely premature 
birth, again, defined as a delivery at 28 weeks or earlier, 
when she later attempts to carry a wanted child to term. This 
could be due to damage to the cervix during the abortion, 
rendering it less competent.
    When a woman has two abortions, she becomes 160 percent 
more likely to have an extremely premature birth. An extremely 
premature birth carries greatly increased risks for many 
serious health issues. For example, babies who are extremely 
premature have 38 times the risk of cerebral palsy than babies 
born full-term. And there are increased risks for autism and 
mental retardation.
    Abortions performed on African-American women are 
approximately five times the rate of Caucasian women. And, 
consequently, African-American women have four times the risk 
of extremely premature birth.
    It is also true that the danger of subsequent premature 
birth is significantly greater when an abortion is performed on 
a girl under 17 years of age.
    Premature birth rates are now up more than 43 percent since 
Roe v. Wade became law. Forty-nine studies worldwide have 
confirmed this causal link between abortion and premature 
birth. Abortion and suicide are also correlated.
    A study by two economists appearing in the January 18th, 
2012, online version of the Journal of Economic Inquiry shows 
that parental involvement laws correlate with a decrease in the 
incidence of teen suicide. Quote, ``The adoption of a law 
requiring a parent's notification or consent before a minor can 
obtain an abortion is associated with an 11 to 21 percent 
reduction in the number of 15- through 17-year-old females who 
commit suicide,'' unquote.
    Ladies and gentlemen, we have a responsibility to ensure 
that parents are able to protect their minor daughters from an 
invasive surgical procedure that takes the life of their 
grandchild and sometimes brings with it additional, 
significant, and deadly hidden costs. This bill is a step in 
that direction.
    And I would now recognize the Ranking Member for 5 minutes 
for an opening statement.
    [The bill, H.R. 2299, follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Nadler. Thank you, Mr. Chairman.
    Today we consider legislation that is at once another 
flagrant violation of the Constitution and an assault on the 
health and well-being of young women and the health care 
providers.
    Before we start discussing this bill, versions of which we 
have considered in the 105th, 106th, 107th, 108th, and 109th 
Congresses, and I presume will have no more success in this 
Congress, I think it is important to note that this is the 
ninth time this Committee has met in this Congress to assault 
the reproductive rights of women.
    The 112th Congress has had just over 200 legislative days 
so far. If the Republican leadership had put as much effort 
into helping distressed homeowners or creating jobs or 
reforming our immigration laws as they have into the war on 
women, most of our problems might have been solved by now.
    Instead, we get this warmed over and facially 
unconstitutional legislation yet again. Some States have chosen 
to enact parental notification or consent laws. Some, like 
mine, have considered this issue and decided it is not good for 
the welfare of young women and have declined to do so.
    This bill would substitute the judgment of Congress for the 
judgment of people who live in States like mine. In fact, even 
where the young women's State of residence and the State in 
which the doctor is located have both decided not to enact such 
laws, this bill would impose a new Federal parental 
notification law that is more draconian and more 
unconstitutional than the laws of most States.
    Perhaps we should just disband our State legislatures and 
let Washington decide these important family issues for us. If 
it would spare the rest of us endless speeches about federalism 
and State's rights, I might be tempted to go along with it.
    I would just note, in this regard, that many Members of 
this Committee recently voted to allow the laws of some States 
to preempt the concealed carry firearm laws in other States, 
including mine. Congress would, in effect, allow any State to 
nullify our laws and require us to allow anyone lunatic to walk 
our streets with a concealed weapon if so much as one other 
State says they can.
    As a matter of policy, this bill would place many young 
women in an impossible situation. In some cases, the young 
woman may not be able to go to her parents and can turn only to 
a grandparent, a sibling, or a member of the clergy. Indeed, 
sometimes the parents may pose a threat to the life and health 
of the young woman, if they learn that she is pregnant.
    That is what happened to Spring Adams, a 13-year-old from 
Idaho. She was shot to death by her father after he found out 
that she planned to terminate her pregnancy, one he caused by 
his act of incest.
    I would commend the authors of the bill for not allowing 
him to sue in this new version of the bill. It is a step in the 
right direction from the prior versions of the bill, albeit a 
small step.
    This bill also uses a narrow definition of medical 
emergencies that applies only where, ``abortion was necessary 
to save the life of the minor because her life was endangered 
by a physical disorder, physical injury, or physical illness, 
including a life-endangering physical condition caused by or 
arising from the pregnancy itself.''
    That clearly falls far short of the Supreme Court's 
requirement that any restriction on the right to choose must 
have an explicit exception to protect the life or health of the 
woman.
    There are many things far short of death that threaten a 
young woman. She deserves prompt and professional medical care, 
and the Constitution still protects her right to receive that 
care. Requiring that young women have their health destroyed is 
beyond cruel. It is anything but pro-life.
    I know that I have rankled some of my colleagues in the 
past by comparing this bill to the fugitive slave law. I would 
never suggest that this bill turns young women into slaves, so 
don't say that I did. I won't even presume to know what 
Frederick Douglass might think of this bill.
    But by requiring a young woman or any American to carry the 
law of their States on their backs as they travel around the 
country to other States is inimical to our Federal system. We 
have a few laws in New York that I think might benefit the 
people of other States, but I am not sure the proponents of 
this legislation would particularly like it.
    I know of no laws since the Fugitive Slave Act that 
literally says that you take the law of the State from which 
you leave when you go to some other State, and use the power of 
the Federal Government to enforce the law of the first State in 
the jurisdiction of the second State.
    So when she goes from State A to State B, and State B 
allows abortions, let's say without parental notification, this 
bill says that that is illegal and that the doctor who performs 
the abortion in the State where it is perfectly legal to do so 
without parental notification commits a crime because of the 
law in the other State.
    So this bill uses the power of the Federal Government to 
export the law of one State, to enforce it another against the 
public policy of the State. And as I said, I know of no law 
since the Fugitive Slave Act that attempted to use the power of 
the Federal Government in exporting the law of one State to 
another State.
    Congress, in any event, should not be tempted to play 
doctor. It is always bad medicine for women. This 
unconstitutional and ill-considered legislation will harm young 
women.
    But perhaps the intention is to punish young women who 
desire to have abortions. In fact, that seems to be the 
intention of a lot of legislation, so maybe it is not ill-
considered. Maybe it is simply ill-motivated.
    I look forward to the testimony of our witnesses, and yield 
back the balance of my time.
    Mr. Franks. Without objection, other Members' opening 
statements will be made a part of the record.
    [The prepared statement of Mr. Smith follows:]
 Prepared Statement of the Honorable Lamar Smith, a Representative in 
   Congress from the State of Texas, and Chairman, Committee on the 
                               Judiciary
    Across the country, officials must obtain parental consent before 
children can engage in certain school activities such as field trips 
and contact sports.
    In nearby Maryland, school systems even require a parent's note 
before sunscreen can be applied to a student.
    And my home state of Texas, along with the large majority of 
states, requires parental consent before anyone can tattoo a minor.
    Abortion is a serious medical procedure. And most states--my home 
state of Texas included--have some form of parental involvement law 
that requires that at least one parent be given notice, or give their 
consent, before their minor daughter receives an abortion.
    Yet today, it remains legal for complete strangers to evade those 
state parental involvement laws and transport minors across state lines 
to obtain secret abortions without the minor's parents ever knowing 
about it.
    Because this tragic gap in the law involves interstate commerce, 
under the Constitution, only Congress can address it. The Child 
Interstate Abortion Notification Act ensures state parental involvement 
laws are not evaded through interstate activity.
    Parental involvement in the abortion decisions of minor girls leads 
to improved medical care for minors who seek abortions, and provides 
increased protection for young girls against sexual exploitation by 
adult men.
    Parental involvement ensures that parents have the opportunity to 
provide medical history and other information to abortion providers 
prior to the performance of an abortion.
    The medical, emotional and psychological consequences of an 
abortion are serious and lasting. An adequate medical and psychological 
case history is critically important to any physician, and often only 
parents can provide such information for their daughters as well as any 
suitable family medical history.
    Parental involvement also improves medical treatment of pregnant 
minors. It ensures that parents have adequate knowledge to recognize 
and respond to any post-abortion complications that may develop.
    Without the knowledge that their daughters have had abortions, 
parents are unable to ensure that their children obtain routine 
postoperative care.
    Finally, teenage pregnancies often occur as a result of predatory 
practices of men who are usually much older than their minor victim. 
This results in the transportation of victims across state lines by an 
individual who has a great incentive to avoid criminal liability for 
his conduct.
    Parental involvement laws ensure that parents have the opportunity 
to protect their daughters from those who would victimize them further, 
and the bill under discussion today does just that.
    The House passed this legislation with large bipartisan support 
when it was last brought up for a vote. I hope and expect it will enjoy 
the same broad support this year.
                               __________

    Mr. Franks. And I certainly hope people listen very 
carefully to statements like this and think through it.
    Witnesses, thank you for being here this morning. We 
welcome you.
    Dr. Teresa Collett is a professor of bioethics and 
professional responsibility at the University of St. Thomas 
School of Law. Professor Collett is an elected member of the 
American Law Institute, and she has testified before committees 
of the United States Senate and House of Representatives, as 
well as before State legislative committees.
    Most recently, she represented various medical groups in 
the defense of the Federal ban of partial-birth abortion and 
the Governors of Minnesota and North Dakota in a parental 
consent case before the United States Supreme Court. She has 
served as a special attorney general for the States of Oklahoma 
and Kansas, and has assisted other States attorneys general in 
defending laws protecting human life and marriage.
    And, welcome, Professor Collett.
    The Very Rev. Dr. Katherine Hancock Ragsdale was appointed 
president and dean of Episcopal Divinity School in Cambridge, 
Massachusetts, in March of 2009. Dean Ragsdale has appeared on 
William F. Buckley's Firing Line, Faith Under Fire, Religion 
and Ethics, and many other broadcasts.
    Dean Ragsdale served on the national boards of NARAL, Pro-
choice America. She is the editor of ``Boundary Wars: Intimacy 
and Distance in Healing Relationships,'' and the author of 
``The Role of Religious Institutions in Responding to the 
Domestic Violence Crisis.''
    Welcome, Dean Ragsdale.
    Dr. Michael New is an assistant professor of political 
science at the University of Michigan-Dearborn, a Phi Beta 
Kappa graduate of Dartmouth College. He holds a master's degree 
in statistics and a Ph.D. in political science from Stanford 
University. He completed his postdoctoral research at the MIT 
Harvard Data Center.
    Dr. New's research interests span from campaign finance 
reform to the positive impact of pro-life legislation and 
States' informed consent laws, Medicaid funding rules and 
parental notification laws for minors.
    His work has been featured in peer-reviewed scholarly 
journals, such as the State Politics & Quarterly Policy and in 
major media outlets such as National Review Online, the Weekly 
Standard, and the New York Post.
    I want to thank all witnesses, again, for appearing before 
us today. Each of the witness's written statements will be 
entered into the record in its entirety, and I would ask that 
each witness summarize his or her testimony in 5 minutes or 
less. And to help you stay within that time, there is a timing 
light on your table. When the light switches from green to 
yellow, you will have 1 minute to conclude your testimony. When 
the light turns red, it signals that witness's 5 minutes have 
expired.
    Before I recognize the witnesses, it is the tradition of 
this Committee that they be sworn, so if you will please stand 
to be sworn.
    [Witnesses sworn.]
    Mr. Franks. Thank you, and please be seated.
    I will recognize our first witness, Professor Collett, for 
5 minutes.
    Pull your microphone closer to you maybe. Is that on?

    TESTIMONY OF TERESA STANTON COLLETT, PROFESSOR OF LAW, 
             UNIVERSITY OF ST. THOMAS SCHOOL OF LAW

    Ms. Collett. Mr. Chairman, other Members of the Committee 
and distinguished guests, I am delighted to appear to testify 
in favor of this important piece of legislation related to the 
health care of minors.
    I am a professor of law at the University of St. Thomas in 
Minnesota. My opinions I express here today do not represent 
the university or any other organization or person. They are 
opinions, however, that I have derived by virtue of my 
scholarly studies of the operation of parental involvement 
laws, as well as my practice in litigation in representing 
States defending their parental involvement laws.
    This particular piece of legislation has appeared before 
this Committee numerous times, as Congressman Nadler mentioned. 
In fact, it is a common-sense piece of legislation that 
represents the consensus across the country. Thirty-seven 
States currently have parental involvement laws in effect, and 
another six States have passed them but had them enjoined by 
judicial action or by an opinion of their State attorney 
general.
    These laws are based on common-sense protection of girls in 
recognition of the particular health benefits that derive from 
them.
    First and foremost, as the United States Supreme Court 
itself has observed, parental involvement allows the parent to 
provide needed medical history and details to a physician who 
is about to undertake treatment of their minor daughter. It 
also allows the parent to guide that minor in the selection of 
an abortion provider, knowing the difference between a 
competent doctor as opposed to someone who is simply practices 
in this area to generate money and engages in unsanitary 
conduct.
    Second, they allow the opportunity of those parents to 
ensure that the girl's well-being is properly considered by 
that abortion provider.
    And finally, and I believe most importantly, as the Supreme 
Court has observed, it ensures that the parents have the 
ability to monitor for post-abortion complications.
    The Chairman mentioned particularly surgical abortions, but 
surgical abortions are not the only form of abortion being 
engaged in by abortion clinics today. There are also abortions 
using RU-486, which was approved for use by the FDA but had not 
been tested on the use of minors. There has been no follow-up 
study, notwithstanding the FDA's requirement that such studies 
be submitted to the FDA on the use of RU-486 for minors.
    Therefore, it is of critical importance that parents know 
about the medical condition of their minor, as well as about 
the medical treatment that has been undertaken, so that they 
can monitor for adverse effects, such as hemorrhaging or 
infection, the primary adverse side effect from abortion.
    The Ranking Member mentioned the need on occasion for an 
emergency abortion. In a study that I did in preparation for my 
testimony as an expert witness in Alaska, I actually looked for 
State records regarding the number of emergency bypasses done 
related to abortion of any kind, and there are few States that 
actually report that to the departments of health. Among them 
are Alabama, Nebraska, and Wisconsin.
    What those States reported in the period from 2005 to 2010 
is that were over a total of four--four--emergency abortions. 
In Alabama, the number of abortions ranged from 781 to 654 
during that time period. In 2005, there was exactly one 
emergency bypass. In 2006, there was exactly one emergency 
bypass. And from 2007 to 2010, none.
    In Wisconsin, the number was zero for a 5-year period. And 
in Nebraska, the number was one in a 5-year period.
    This legislation is obviously constitutional and relies on 
the long-standing Supreme Court precedent that allows Congress 
to correct the problems that can be created in federalism.
    The State of Missouri, for example, attempted to create a 
statute that precluded intentionally taking a minor out of 
State in order to obtain abortion and avoid that State's 
parental consent law. In reviewing the law, the Missouri 
Supreme Court upheld it only in so far as it applied in State, 
but it could not reach the conduct of abortion providers in 
Illinois who were actively advertising for girls to cross State 
lines to avoid parental consent.
    This law is no different than the law upheld by the Supreme 
Court in Caminetti, which forbids the transport of women across 
State lines for immoral purposes, or any other numerous laws.
    If FACE is constitutional, a favorite of abortion 
activists, then certainly this law is constitutional.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Collett follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Franks. Thank you, Professor Collett.
    And Rev. Ragsdale, please, for 5 minutes.

   TESTIMONY OF THE VERY REV'D. KATHERINE HANCOCK RAGSDALE, 
         PRESIDENT AND DEAN, EPISCOPAL DIVINITY SCHOOL

    Rev. Ragsdale. Chairman Franks, Ranking Member----
    Mr. Franks. Rev. Ragsdale, would you pull that in and push 
the button? That will work.
    Rev. Ragsdale. Thank you very much.
    Mr. Franks. Yes, ma'am.
    Rev. Ragsdale. And thank you for the opportunity to testify 
once again on this bill.
    I come before you as an Episcopal priest with over 15 years 
in parish ministry, now serving as president of one of the 
Episcopal Church's 10 seminaries. My interest in and 
perspective on this issue are shaped by my life as a parish 
priest, by my current work educating future priests, and by my 
responsibilities as an Episcopalian, because this bill flies in 
the face of, is completely contrary to, the official position 
of the Episcopal Church.
    I recall vividly one day when I left my home to pick up a 
15-year-old girl and drive her to Boston for an 8 a.m. 
appointment for an abortion. I didn't know the girl. I knew her 
school nurse. The nurse had called me a few days earlier to see 
if I knew where she might find money to give the girl for bus 
fare to and cab fare home from the hospital. I was stunned.
    A 15-year-old was going to have to get up at dawn and take 
multiple buses to the hospital alone. The nurse shared my 
concern but explained that the girl had no one to turn to. She 
feared for her safety if her father found out, and there were 
no other relatives close enough to help.
    There was no one to be with her, so I went, and during our 
hour-long drive, we talked. She told me about her dreams for 
the future, all the things she thought she might like to do and 
be. I talked to her about the kind of hard work and personal 
responsibility it would take to get there. She talked to me 
about her guilt at being pregnant. I talked to her about God.
    Later, I drove her back to her school and walked her to the 
nurse's office and turned her over to someone who would look 
out for her for the rest of the day, and I drove home wondering 
how many bright, funny, thoughtful, girls, girls brimming with 
promise, had no one to help them.
    I did not take her across State lines, nor did I, to my 
knowledge, break any laws. But if either of those things had 
been necessary to help that girl, I would have done them.
    And if helping young women like her should be made illegal, 
I will nonetheless continue to do it. I have no choice.
    Some years ago, I stood before an altar and a bishop of the 
people of God, and vowed to love and serve the people among 
whom I work. Even if you tell me that it is a crime to exercise 
my ministry, I will have no choice. And I assure you, I am not 
alone.
    I would like to acknowledge that we probably all have much 
in common here: although we may differ as to when, if ever, 
abortion is a morally appropriate choice, I wish we could all 
acknowledge the fact that it is a legally protected choice. 
And, certainly, we can all agree that we would like for all 
women to have fewer reasons to consider abortion, and we all 
deeply desire that every teen facing any significant decision 
be able to turn to her parents for guidance and support.
    That is the world we wish for. The Episcopal Church, 
certainly, hopes and works for such a world even as we passed a 
resolution opposing parental notification laws, because we know 
that, unfortunately, for far too many young women, this is not 
the world they actually live in and must find a way to 
navigate.
    We know that young women do get pregnant, sometimes due to 
poor choices or carelessness, too often due to violence or 
coercion. And while you surely know the statistics that an 
overwhelming majority of minor women considering an abortion 
do, indeed, talk to their parents, some won't and others can't.
    That is why many years ago now the Episcopal Church passed 
a resolution opposing any parental consent or notification 
mandates that did not include provision for nonjudicial bypass. 
We thought it was far too onerous to require a teenager already 
undergoing the trauma of an unintended pregnancy to also have 
to face and navigate an intimidating judicial system.
    It was our view that any morally responsible notification 
or consent requirement had to allow young women to turn for 
help to a responsible adult other than a parent or a judge, to 
go instead to a grandparent or an aunt, a teacher, a neighbor, 
a counselor, minister, rabbi, a doctor.
    Our position encourages the very thing this bill would 
outlaw. Certainly, we want young people to be able to talk to 
their parents, but when they can't or won't, we want to make it 
easier not harder for them to turn to other responsible adults.
    And most certainly, we don't want to make it harder for 
their doctors to be their allies and advocates. We adopted this 
resolution by a large majority not because we don't care about 
parental notification and involvement, but because we know that 
no one can simply legislate healthy communication with 
families, and we know that of those girls who do not involve 
their parents, many feared violence or being thrown out of 
their home.
    There is no excuse good enough to justify legislation that 
further imperils young people who are already living in danger 
in their own homes. Teens deserve to be able to talk, to turn 
to their parents for love and support and guidance. But when 
they can't, we want them to turn to some responsible adult.
    Please don't outlaw the very help we want our children to 
have. Oppose this bill. Oppose it out of compassion for those 
young people who cannot for reasons of safety comply with its 
provisions.
    I am sure that each of your families is a loving and 
supportive one, and your daughter knows she can always turn to 
you for anything. But what about her best friend? What about 
your neighbor's daughter?
    Please don't leave any scared teenager alone and without 
help.
    Thank you for the opportunity to provide this testimony.
    [The prepared statement of Rev. Ragsdale follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Franks. Dr. New, I will recognize you now 5 minutes, 
sir.
    Just pull that microphone close. We are going to have to 
just start turning those on at the beginning of the hearing, I 
think, because they fool everybody always.
    Is it on now?

   TESTIMONY OF MICHAEL J. NEW, Ph.D., DEPARTMENT OF SOCIAL 
           SCIENCES, UNIVERSITY OF MICHIGAN--DEARBORN

    Mr. New. Chairman Franks, distinguished guests, thank you. 
I appreciate this opportunity to offer testimony on behalf of 
the Child Interstate Abortion Notification Act. I am currently 
assistant professor of political science at the University of 
Michigan-Dearborn. I am also an adjunct scholar at the 
Charlotte Lozier Institute, the research and education arm of 
the Susan B. Anthony List here in Washington, D.C. I have a 
Ph.D. in political science and a master's degree in statistics, 
both from Stanford University.
    I have authored nine articles which have appeared in 
various peer-reviewed journals, three of which have been on the 
topic of State-level pro-life legislation. In March 2011, an 
article of mine on this topic was published in State Politics & 
Policy Quarterly, which is the top State politics journal in 
the country.
    I have evaluated the research on parental involvement laws 
that has appeared in peer-reviewed journals in public health, 
economics, and political science. I have come across 18 peer-
reviewed studies in total.
    The peer-reviewed research on the impact of State-level 
parental involvement laws arrives at a great deal consensus 
about their effects.
    In my testimony this morning, I want to highlight the four 
most important findings.
    First, every peer-reviewed study I have seen, 16 in total, 
finds that State parental involvement laws reduce the in-State 
abortion rate for minors. This is true of studies that analyze 
time series cross-sectional data, allow for simultaneous 
analysis of multiple laws. It is also true of States that focus 
on the individual--on the impact of an individual State-level 
law.
    There have been separate studies analyzing the laws of six 
States, including Indiana, Massachusetts, Minnesota, 
Mississippi, Missouri, and Texas. The findings are all very 
similar. After the passage of a parental involvement law, the 
research shows a statistically significant reduction in the in-
State minor abortion rate from anywhere from 13 percent to 42 
percent. Most of these find the decline somewhere between 15 
and 20 percent in the in-State minor abortion rate.
    My own research shows that those States which require both 
parents be involved, Minnesota, Mississippi, have seen even 
larger declines.
    Secondly, parental involvement laws are always worth 
enacting because the in-State decline in the abortion rate 
consistently exceeds any out-of-State increase. The two best 
studies in State-level parental involvement laws both show 
this.
    The first study looked at the Massachusetts law that took 
effect in 1981. That study appeared in the American Journal of 
Public Health.
    The second study analyzed the Texas law, which took effect 
in 2000. That study appeared in the New England Journal of 
Medicine in 2006.
    Both studies are unique because they analyze monthly data 
on in-State minor abortions, out-of-State minor abortions, and 
births to minors. Both studies found that after the enactment 
of both the Massachusetts law and the Texas law, the in-State 
minor abortion decline clearly exceeded the out-of-State 
increase.
    Furthermore, both studies did find evidence of short-term 
increases in the minor birthrate. The Texas study found that 
girls who are over 17-and-a-half-years-old are more likely to 
give birth. Another Texas study analyzing similar data showed 
the birthrate for 17-year-olds increased by 2 percent after the 
parental involvement law took place.
    The Massachusetts study suggested that in the year after 
the parental law took effect, 100 minors gave birth instead of 
having abortions as a result of law.
    Third, every State that tracks out-of-State abortions after 
a parental involvement law takes effect finds an increase in 
the number of girls who obtain abortions in adjacent States 
without parental involvement laws. Now, the number depends on 
the State. In large States like Texas, relatively few minor 
girls cross the State line to have an abortion. But in smaller 
States, like Massachusetts and Missouri, a much larger percent 
do. In fact, a fairly substantial decline--or, a fairly 
substantial percentage of the minor abortion rate decline in 
States like Massachusetts and Missouri is due to minor girls 
crossing State lines and having abortions in States where the 
laws are more permissive.
    The fourth and final point I would like to make is that the 
knowledge that parents will be involved with an abortion 
decision provides teen girls with a strong disincentive to 
engage in unprotected sexual activity. There is a very broad 
research, very body of research, I should say, on the positive 
public health of parental involvement laws.
    A 2003 study in the Journal of Health Economics found that 
parental involvement laws are reducing teen pregnancy rate 
anywhere from 4 to 9 percent. A 2008 study in the Journal of 
Law, Economics and Organization, found that parental 
involvement laws reduced the gonorrhea rate for minors from 
anywhere from 12 to 20 percent.
    Finally, this past February, the Journal of Economic 
Inquiry published a study which shows that the enactment of 
parental involvement law lowers the teen suicide rate for minor 
girls.
    As such, I would encourage Members of the Committee to 
support the Child Interstate Abortion Notification Act. It will 
give parents more involvement over how their minor daughters 
resolve pregnancies.
    I think it is safe to say that parents are more invested in 
the well-being of their minor daughter than a boyfriend, a 
friend, or a relative. They also have better knowledge of their 
daughter's medical history. There is evidence where minor girls 
obtained abortions without their parent's knowledge and died 
because they did not realize they were allergic to the 
anesthesia.
    Based on the testimony I have given, I am confident that 
the Child Interstate Abortion Notification Act will lead to 
fewer abortions and better public health outcomes for teen 
girls. Thank you.
    [The prepared statement of Mr. New follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Thank you, Dr. New.
    And thank all of you.
    Professor Collett, you know you heard some of the previous 
comments related to the constitutionality of the law. And I 
guess it is always a good thing to sometimes restate the 
obvious. Essentially, this bill says that one cannot circumvent 
parental consent laws in a State by, without the parent's 
knowledge, taking a minor girl across State lines for an 
abortion.
    Obviously, I have a little girl. She is only 3. But I hope 
that she doesn't run into somebody who would have the 
philosophy of Rev. Ragsdale.
    With that said, can you tell me--if you could kind of 
expand on your reasoning for why this is a constitutional law?
    Ms. Collett. Certainly. In fact, this bill is far narrower 
than the Free Access to Clinic Entrance Act, because it 
operates only on residents of the State when they leave their 
State. It applies the home State law, and simply facilitates 
the State's ability to protect minors consistent with that.
    There are numerous Supreme Court decisions that allow when 
there is interstate movement of persons related to commercial 
activity, that that interstate movement of persons can be 
constitutionally regulated by this Congress. For example, in 
the Caminetti case, the taking of women across State lines for 
immoral purposes, was upheld. Certainly the Raich case dealing 
with medical marijuana, the court upheld the congressional 
authority to involve itself in medical determinations.
    It is very clearly constitutional. This Congress has on 
numerous occasions relied upon the interstate commerce clause 
for its power. That is the enumerated power that, under this 
instance, it would be appropriate to uphold the statute under.
    Mr. Franks. Well, I always find it a little unnerving when 
people tell me that to say, you know, that someone taking a 
minor child of someone else's across the State lines to perform 
or have a surgery performed upon them, that somehow that it is 
unconstitutional to recognize parent's rights in that regard, 
it just astonishes me beyond comprehension.
    Dr. New, you testified that the academic research on 
parental involvement laws say that it has an impact on their 
in-State minor abortion rates, and I would like for you to 
expand on that.
    But you also say that there is a frequent crossing of State 
lines among minor girls where there is a proximity of a State 
that does not have these laws and where there are people that 
will actually take someone else's child across State lines to 
have a surgery performed on them that will take another child's 
life and endanger the first child's life.
    So would you say that your study in this area points to the 
conclusion that parental involvement laws are successful in 
reducing abortions but that there would be an even greater 
success in reducing abortions if Congress enacted a law 
prohibiting the transportation of minors across State lines to 
have abortion laws without the parent's knowledge or 
involvement?
    Mr. New. Yes. I think those are both fair statements. I 
mean, literally, every peer-reviewed study on this topic shows 
that when a State passes a parental involvement law, the in-
State minor abortion rate goes down. There is a very broad 
consensus about that. Sixteen peer-reviewed studies in total 
that I have looked at, and they all arrive at the same 
conclusion.
    They also found, the studies can really track accurately 
both the in-State decline and compare it to the out-of-State 
increase. There are some States that have reciprocal reporting 
arrangements, where they know kind of what is happening to 
these minor girls, pretty much every study also finds--both 
studies that look at that do find the in-State decline exceeds 
the out-of-State decrease.
    So I think it is fair to say that these laws are effective. 
We also, again, do see a short-term increase in minor 
birthrates, meaning that once these laws are passed, some 
minors who otherwise had abortions decided to give birth.
    But I do think these laws would be made more effective if 
the Child Interstate Abortion Notification Act did take effect, 
because in many States, especially States with close proximity 
to other States with more permissive laws, you do see a 
substantial part of the in-State minor abortion decline due to 
the fact that minors cross State lines.
    That was certainly true in Massachusetts. When 
Massachusetts passed their law in 1981, it was surrounded by--
basically every other State did not have a parental involvement 
law, including New York, including New Hampshire, including 
Rhode Island up until 1982, including Connecticut.
    And, again, a number of Massachusetts minors circumvented 
that law by getting abortions in other States.
    There was a study of the Missouri law that was enacted in 
1985, and it was again similar. Illinois does not have a 
parental involvement law, and there was evidence that many 
minors did go across the border and obtain abortions in 
Illinois.
    So I really do think that the Child Interstate Abortion 
Notification Act would really strengthen these parental 
involvement laws that are already doing a lot of good in the 
respective States.
    Mr. Franks. You know, I can't help but wonder how parents 
feel when they find that some stranger has taken their minor 
daughter across State lines for an abortion, so that they can 
keep it from their parents. I know how I would react. But I am 
wondering why that isn't something that is more obvious to 
everyone here.
    So I will now recognize Mr. Nadler for 5 minutes for 
questions.
    Mr. Nadler. Thank you, Mr. Chairman.
    Rev. Ragsdale, a moment ago the Chairman said he hoped his 
daughter never ran into someone like you or with your 
philosophy. Could you describe the kind of situations where 
another adult, either relative or perhaps a clergy person, 
might need to assist a young woman who is pregnant, where it 
would be in her welfare for that person to do so? And is a 
parent always the best person to have involvement in a 
situation, or is it even possible?
    Rev. Ragsdale. Well, Mr. Nadler, you actually referenced 
just such a situation in your opening remarks, where the father 
shot the daughter, who had hoped to get an abortion.
    A lot of young women seeking abortions were impregnated by 
their fathers, or they are in homes where the parents are 
sufficiently emotionally unstable that they may disrupt the 
entire family. Children are thrown out of their homes. They are 
beaten.
    One of the past times that I testified on this, I was still 
a parish priest. And a man in my parish with a teenage daughter 
said to me, ``I would be furious if you did that with my 
daughter.'' I said, ``Well, I wouldn't have to do that with 
your daughter. If she came to me because she was afraid to talk 
to you, I know that you are safe. I would take her, go with you 
her to talk to you and deal with this.''
    But there are young women who are in danger. They are in 
danger of being beaten. They are in danger of being killed. 
They are in danger of being thrown out of their homes.
    They have to find another way to get these procedures. And 
I don't want them doing it without any adult support, nor does 
the Episcopal Church.
    So that is why we support nonjudicial bypass provisions 
that would allow a grandparent, a teacher, a clergy person to 
accompany these young women and to keep them safe.
    Mr. Nadler. There has been a lot of talk recently that a 
requirement in law that insurance policies cover contraceptives 
is an assault on the religious liberty of those employers who 
don't want to pay insurance even if they don't have to pay 
extra, because it is against their religion to have people use 
contraceptives.
    Would this bill be an assault on your religious liberty or 
the religious liberty of the Episcopal Church in saying that 
what your ministry compels you to do would become a criminal 
act?
    Rev. Ragsdale. Yes.
    Mr. Nadler. In exactly the same way as it is alleged that 
the contraceptive requirement is an assault on the religious 
liberty of some other church?
    Rev. Ragsdale. Well, I am not sure in exactly the same way, 
because I don't concur that the contraceptive coverage is an 
assault on the religious liberty----
    Mr. Nadler. Well, I don't agree on that either, and I don't 
think this is an assault on religious liberty, but if that is, 
this is.
    Rev. Ragsdale. But I am not taking Federal money, and, 
therefore, to interfere with my ability to do my ministry is an 
assault.
    Mr. Nadler. Would be even worse.
    Rev. Ragsdale. And to fulfill the provisions that the 
Episcopal Church has passed in general convention many years 
ago.
    Mr. Nadler. Thank you.
    Let me ask you this. We heard, from 2005 through 2010, 559 
judicial bypasses were sought in the State of Idaho. During 
that time, a total of 24 were granted. In three of those years, 
none were granted at all.
    That is half a percent of young women who managed to find 
their way through the court system, who tried to do so. The 
records for the other States are no better. Many judges simply 
refuse to grant the bypass ever.
    Would you say the judicial bypass system is a sham in 
practice?
    Rev. Ragsdale. I would like to believe that there are some 
responsible, ethical judges who behave appropriately, and it is 
sort of in my business to believe things in contradiction to 
the evidence from time to time, but it certainly seems the 
evidence suggests that, yes, it is a sham.
    When the Episcopal Church suggested--insisted on 
nonjudicial bypass provisions, this was before we had this 
experience. We simply wanted it because we thought navigating 
the court system was just too much to ask, too intimidating to 
ask of a young woman already in a tricky situation.
    Having seen since the evidence of what actually happens in 
these judicial bypass procedures, it seems clear that they are 
ineffective at best and often abusive. And we really would not 
want to subject any person to those procedures as they are 
exercised in most States.
    Mr. Nadler. Thank you.
    Professor Collett, this bill only has an exception if an 
abortion is, ``necessary to save the life of the minor because 
her life was endangered by a physical disorder, physical 
injury, or physical illness, including a life-endangering 
physical condition caused by or arising from the pregnancy 
itself.''
    Does is exception comply with the constitutional mandate 
that you have to permit an abortion when necessary for the life 
or health of the mother? And to the extent that a woman might 
need a medical treatment that is inconsistent with pregnancy, 
she needs medical treatment that is inconsistent with 
pregnancy, but is not caused or arising from the pregnancy 
itself, wouldn't the Constitution require that an abortion be 
permitted in that case as well, contrary to this law, to this 
bill, rather?
    Ms. Collett. Congressman Nadler, in fact, I believe the 
constitutional case that you are relying on is Doe v. Bolton, 
which was a statutory construction case. It was not an 
interpretation of the Constitution. It was an interpretation of 
the----
    Mr. Nadler. Excuse me, there is not a constitutional 
requirement under applicable Supreme Court law that abortions 
be allowed for the life or health of the mother?
    Ms. Collett. I am sorry, Congressman Nadler. If I could 
complete my answer.
    In Doe v. Bolton, where they gave the life or health of the 
mother language, it was statutory construction. In Planned 
Parenthood v. Casey, which was an opinion that occurred 20 
years later, in fact, they upheld an emergency exception 
remarkably similar to this on a constitutional basis where the 
language did not have the health of the mother.
    In Ayotte v. Planned Parenthood of Northern New England, 
the most recent United States Supreme Court case dealing with 
parental involvement laws, the Court, in fact, even upheld the 
statute at issue in that case without an emergency exception.
    I believe this is completely constitutionally consistent 
with Planned Parenthood v. Casey and Ayotte.
    Mr. Nadler. So it is your belief that an abortion can be 
refused even if, constitutionally, even if refusing that 
abortion would wreck the health of the mother but wouldn't kill 
her?
    Ms. Collett. I believe the Court has upheld similar 
exceptions.
    Mr. Nadler. The answer is yes, you believe that that is the 
state of the law.
    Ms. Collett. I believe that is the state of the law.
    Mr. Nadler. Thank you. You are in a very small minority, I 
must tell you.
    Thank you. I yield back.
    Mr. Franks. All right, I would now yield to Mr. Jordan for 
5 minutes.
    Mr. Jordan. I thank the Chairman for the time and for this 
legislation, this hearing.
    Dr. New, the premise from Ms. Ragsdale is that if we have 
this law or, frankly, any parental notification, parental 
consent law, that there is the potential that minors can be 
harmed if they have to communicate with their parents.
    You cited a number of studies.
    Mr. New. Yes.
    Mr. Jordan. Do any of the studies show that that actually--
you see an increase in harm to minors where you have States 
with parental notification, parental consent laws?
    Mr. New. I am not aware of any body of peer-reviewed 
research which shows an increase in child abuse rates that 
follow from the enactment of State-level parental involvement 
laws, so, no, I have yet to see a study that would show that.
    Mr. Jordan. So your answer is that not one single study 
shows that involving the people who care most about children, 
their parents, not one single study shows that there is an 
increase in child abuse? Is that accurate?
    Mr. New. I have researched the academic literature, and I 
think I have been fairly thorough. There may something out 
there I haven't seen, but I have been very thorough in my 
reading, and I have yet to come across one peer-reviewed study 
that----
    Mr. Jordan. Not one single study?
    Mr. New. No.
    Mr. Jordan. Okay.
    And, Professor Collett, do you know of any studies that 
show what the reverend asserts?
    Ms. Collett. In fact, there is a study to the contrary by 
Henshaw and Kost. Of course, Stanley Henshaw is a demographer 
of the Guttmacher Institute, a research affiliate of Planned 
Parenthood. The study is ``Parental Involvement in Minors' 
Abortion Decisions.'' It was published in 1992. Table 5 of that 
particular study, Congressman, in fact, indicates that although 
minors had initially, a small minority of minors, had expressed 
concerns that there would be violence or be thrown out of their 
home, and that is why they were reluctant to inform the 
parents, when researchers inquired after the fact, there was 
not a single study in which violence had occurred.
    Mr. Jordan. So, in fact, we don't have one study that shows 
that there is an increase in harm to young people, but we have 
research that shows it actually could be positive.
    Ms. Collett. There is no research that shows harm.
    Mr. Jordan. Okay.
    Reverend, let me ask you a slightly different question. 
There was an article recently published in the Journal of 
Medical Ethics, two bioethicists/philosophers argued for what 
they term after-birth abortion. And they assert, and I quote, 
``We claim that killing a newborn could be ethically 
permissible in all circumstances where abortion would be.''
    And I want to know, first, if you are familiar with the 
article; and, second, if you agree with the assertion of these 
two bioethicists/philosophers.
    Rev. Ragsdale. I am not familiar with that particular 
article. I am certainly familiar with philosophers who have 
made similar arguments. It is sort of the job of academic 
philosophers to think way outside the box.
    We, obviously, utterly disagree and don't consider it a 
responsible position.
    Mr. Jordan. Okay. And what would you call the term after-
birth abortion? Is there a better definition, better language 
for that?
    Rev. Ragsdale. I am sorry, I don't think there is any such 
thing as after-birth abortion. Abortion is the termination of--
--
    Mr. Jordan. Yes, it seems to me this is infanticide. It is 
murder. It is the taking of innocent human life.
    Mr. Nadler. Would the gentleman yield for a moment?
    Mr. Jordan. These ethicists seem to----
    Mr. Nadler. I think I can help clear this up. Will the 
gentleman yield for a moment?
    Mr. Jordan. I would be happy to yield.
    Mr. Nadler. I think just about everyone on this side of the 
aisle and on that side of the aisle voted for the--what was 
that called?--the Born Alive Infants Protection Act, which was 
on this issue. I stated at the time that this was absurd, that 
this was infanticide and murder, and we all voted for it, and 
stated at the time that it was unnecessary because it was 
already the law in every State that it was murder.
    Mr. Jordan. And I appreciate that, but we have a journal 
printing this kind of ridiculous----
    Mr. Nadler. There is always some nut out there.
    Mr. Jordan. Yeah. My question was to the reverend, and she 
answered the question.
    Rev. Ragsdale. One of the repercussions of the tenure 
system. You are encouraged and entitled to think any bizarre 
thing you want and to publish it, and it pushes the envelope.
    Mr. Jordan. Well, that is good to hear.
    Mr. Chairman, with that, I would yield back.
    Mr. Franks. Well, thank you, Mr. Jordan.
    It is kind of ironic that, you know, that we have talked 
about--at least we have some agreement here that after-birth 
abortion is murder, and yet somehow there is some argument that 
10 minutes earlier before you travel 5 inches down a birth 
canal, that all of a sudden everything is changed.
    And it is also interesting that our President voted twice 
against the legislation that would have protected children born 
alive in his legislative career.
    With that, I would yield to Mr. Quigley for 5 minutes for 
questions.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Chairman, I think anyone watching these hearings or the 
hearing, since I have been here for 3 years now, understands 
how just extraordinarily emotional and how powerful they are, 
how strong people's feelings are, how difficult the decisions 
that have to be made are.
    And for me, what that seems to bring out is the fact that, 
sitting here in Washington, I have absolutely no right to tell 
people how they handle that decision. It is impossible for us 
to know all of the scenarios that exist under those 
circumstances, all of the risk, all of the dangers, all of the 
emotional turmoil that takes place. And for us to put ourselves 
in that place is inappropriate, especially for those who claim 
that government's role is least, that government shouldn't 
intrude on people's lives.
    So I appreciate that nothing we say here ever, if I am here 
3 years more or 30 years more, will ever change anyone else's 
mind. But I will say this, however any of us feel, it is worse 
and it is wrong for us to place ourselves above anybody's 
decision-making process, especially when it comes to something 
as serious as this.
    But I will ask the reverend one question.
    Are you aware what major medical groups have said or talked 
about in terms of confidentiality in medical care for minors?
    Rev. Ragsdale. I believe virtually every medical group that 
one can name is on the record as opposing this sort of 
regulation, because of their interest in protecting the doctor-
patient relationship and not wanting to pit doctors against the 
young women who come to them for help.
    Mr. Quigley. And, well, the scenarios that you have seen, 
and for what you know, how would you imagine that this measure 
would actually, in reality, be enforced? Border patrols or 
questions or putting doctors in a very unique position?
    Rev. Ragsdale. I think the goal is to have a chilling 
effect on doctors and make them unwilling to perform abortions.
    It is interesting that the success of these parental 
notification requirements is being measured by Dr. New as 
reducing abortions, which suggests to me that their point here 
is not actually protecting young women's health but reducing 
abortions, which is a constitutionally protected right.
    So I think the goal is to have a chilling effect on 
doctors, to deny young women the adult support that they might 
need to move forward safely with this procedure. And I think 
the result will be, and I think the result has been, and 
perhaps the reason that the statistics don't show abuse is that 
the young women are not foregoing abortions, the ones who are 
in danger, so much so they are getting them illegally or 
without any adult support.
    Mr. Quigley. Right, and I think it teaches us that there is 
a difference between correlation and causation.
    Rev. Ragsdale. Well, exactly.
    Mr. Quigley. And there is also a difference that wasn't 
taken into consideration of where the abortions are actually 
taking place. It is not taking place in the same State for the 
reasons we were talking about before.
    Thank you, and I yield back, Mr. Chairman.
    Mr. Franks. I thank the gentleman. I have to thank him for 
his tone, but placing himself above someone else's decision, he 
mentioned that, and that is one of the challenges with this 
legislation, we are trying to make sure that perfect strangers 
don't place themselves above a parent's right to decide things 
over their own children. The judges, obviously, you testified 
that they have some reticence to do so, but a perfect stranger 
who finds the arrogance to do that is just astonishing to me.
    And you are right, too, Mr. Quigley. There are intense 
feelings about this. There were intense feelings when we were 
debating the issue of slavery, when the Supreme Court said 
slaves weren't persons. But people's minds did change, finally. 
They did change.
    Mr. King, I would recognize you for 5 minutes, sir.
    Mr. King. Thank you, Mr. Chairman.
    And again, I thank the witnesses for your testimony, and 
this raises a number of questions in my mind as I listened to 
their response.
    I would turn first Professor Collett.
    Would you assert that there existed a conscience protection 
for medical practitioners prior to the passage of Obama care?
    Ms. Collett. Well, certainly, there is the Weldon act and 
the Hill-Burton Act that protected both medical institutions as 
well as individual practitioners in certain instances.
    Mr. King. And is it also your understanding that the 
passage of the Patient Protection and Affordable Health Care 
Act has struck that language of conscience protection and 
allowed for an executive branch to, essentially, impose 
obligations on health care practitioners that go beyond that 
conscience protection that you cited?
    Ms. Collett. Actually, Congressman, I believe that is an 
issue that is being litigated as we speak on behalf of a number 
of both individuals and religiously affiliated institutions. I 
do believe that they will be successful in their litigation, 
because I do not believe that the Secretary of Health's 
regulation will withstand constitutional scrutiny.
    Mr. King. Thank you.
    And I turn to Rev. Katherine Hancock Ragsdale and ask if 
you agree with, at least philosophically, with conscience 
protection for medical practitioners?
    Rev. Ragsdale. No.
    Mr. King. You think they should be compelled, then, to 
provide sterilization, abortifacients, and contraceptives even 
if they object to it on religious terms?
    Rev. Ragsdale. You know, I am a church person. I believe in 
conscience. We are big supporters of conscience. We believe 
that everyone's conscience should be respected as long as they 
pay the price for it.
    Civil disobedience, if you are willing to pay the price for 
it. Conscientious objection, if you are willing to pay the 
price for it.
    But if you are not willing to shoot people, don't join the 
Army. If you are not willing to carry a gun at all, don't 
become a police officer. If you are not willing to experiment 
on animals, medical research probably is not the place for you. 
If you are not willing to provide full medical care, don't go 
into----
    Mr. King. I am sorry, the clock is ticking, so I do get 
your point.
    And let me then ask the question, if this conscience 
protection then apparently, if you are willing to pay the 
price, so in your testimony you talk about assisting a young 
lady and you state that you don't believe that you violated any 
laws. But you also assert, if I note this testimony, that you 
have you have no choice because of your oath and your 
commitment. You say, I have no choice even if you tell me it is 
a crime to exercise my ministry, I will have no choice. And I 
assure you I am not alone.
    So are you saying to this Congress, then, that if this 
legislation passes and you are met with the same or a similar 
question for an individual that you described in this 
testimony, that you would cross the State line, you would 
violate Federal law, you would be willing to go to jail for a 
year or pay a $100,000 fine, if you believe it violated your 
conscience to fail to serve?
    Rev. Ragsdale. I hope to God that I would have the courage 
of my convictions and my faith to do that.
    Mr. King. Do you believe that a judge should have a 
conscience protection?
    Rev. Ragsdale. I beg your pardon?
    Mr. King. Do you believe that a judge should have----
    Rev. Ragsdale. That a judge should not have to uphold the 
law if he disagrees with it?
    Mr. King. I mean, just to suspend this for a second, I 
would like to turn to Professor Collett, and then I will come 
back to you on this.
    Professor Collett, I will tell the narrative here, and that 
is that the parental notification law that was passed in Iowa, 
I was part of, that the gentleman, Mr. Nadler, discussed. And I 
met with judges around the State, and I can think one in 
particular who expressed to me how troubled he was that the law 
required him to provide for the judicial waiver, the judicial 
bypass, I think as it was referred to. And he was greatly 
troubled because of his faith, because of his convictions.
    But he found himself, a sworn judge, required to carry out 
the law. And now, because of the language in the law, he was 
required to provide that judicial bypass even though it 
violated his most profound moral and religious convictions.
    Do you believe judges should have conscience protection?
    Ms. Collett. Congressman, this actually came up on the 
Texas subadvisory committee on drafting court rules for 
parental notification and parental consent in that State. At 
that time, we determined it was appropriate for a judge to 
recuse, as they can on any matter where they believe their 
personal values will not allow them to render a judgment under 
law.
    Mr. King. And, Reverend, is it your position that not to 
recuse or to apply the same philosophy to the judges as you 
would the medical practitioners, either pay the price or leave 
the profession and find something else to do?
    Rev. Ragsdale. Well, you understand I am not a legal 
expert. Recusal sounds like a reasonable alternative to me, but 
I haven't given this a lot of thought.
    Mr. King. But if you would allow a judge to recuse himself, 
wouldn't you allow a medical practitioner to recuse himself as 
well?
    Rev. Ragsdale. Medical practitioners have a responsibility 
to respond to the emergencies in front of them. If there is 
another doctor handy that you can hand off to, that is fine. If 
not, it is your job to provide medical care.
    Mr. King. Thank you. There are very few pregnancies that 
are emergencies.
    I yield back.
    Mr. Franks. Thank you, Mr. King.
    I now recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I think a lot of the 
questions I have have been answered. I just have a couple of 
technical questions.
    Professor Collett, in the phrase ``knowingly transports,'' 
would that include a taxicab driver who, a young lady hops in 
the cab and says take me to the abortion clinic; I need an 
abortion.
    Would they be guilty of violating this code section?
    Ms. Collett. Congressman, I don't believe so, because it 
also requires with the intention to assist her in obtaining the 
abortion.
    Mr. Scott. Taking them to the abortion clinic is not 
assisting?
    Ms. Collett. It is not with the intention of assisting her 
in doing that.
    Mr. Scott. Okay, knowingly transport, does that include 
someone who hops in the taxicab with the pregnant teenager?
    Ms. Collett. Have they hopped in the taxicab with the 
intention of helping her evade the State's parental involvement 
law?
    Mr. Scott. The question is transports.
    Ms. Collett. I understand, Congressman. Because this has 
criminal sanctions, it will be strictly construed under 
constitutional standards, and, therefore, you have to meet all 
elements.
    Mr. Scott. So if it is strictly--you are not transporting; 
you are just accompanying. Is that the same thing?
    Ms. Collett. Again, it depends on the intention.
    Mr. Scott. The mens rea is just on the intent to get an 
abortion, not the mens rea to evade the parental consent; is 
that right?
    Ms. Collett. Crossing State lines, that is correct.
    Mr. Scott. The law exempts parents from the application. 
Does it exempt a sister?
    Ms. Collett. No, not on the face of the statute.
    Mr. Scott. So the sister accompanying a pregnant sister 
would violate criminal law by accompanying her sister to the 
abortion clinic?
    Ms. Collett. Unless the law that is to be applied, the law 
of the minor's residence, includes siblings. There are a couple 
States that do.
    Mr. Scott. I am sorry. Where is it exempt from this law?
    Ms. Collett. The requirement is that they apply the law of 
the minor's residence. And, therefore, if the law of the 
minor's residence allows another adult relative to accompany 
the minor, they would not be a violation of the law----
    Mr. Scott. But in absence of that, the sister would be 
violating Federal law.
    Ms. Collett. That would be correct.
    Mr. Scott. Okay, if a college student who lived in a State, 
was a resident of a State, without parental consent law, went 
to college in a State without a parental consent law, and 
sought an abortion, why does this law require a 24-hour 
parental consent?
    Ms. Collett. The law does not use college attendance as a 
standard. Under that standard, there would be numerous adults 
that would be subject to the involvement of someone else. This 
law deals with adults only.
    Mr. Scott. The college wasn't--if you are in another State 
without a parental consent law for any reason, say college, 
your home State does not have a parental consent law, you are 
performing the abortion in a State that is not the residence of 
the teenager. This law requires a 24-hour notice, 
notwithstanding the fact that neither State has a parental 
consent law; is that right?
    Ms. Collett. I am sorry, Congressman. Could you direct me 
to the provision. I am confused by your----
    Mr. Scott. Page 7, line 15.
    Ms. Collett. I am sorry, I will need the section, because I 
don't have your printing.
    Mr. Scott. Section 3, Child Interstate Abortion 
Notification, and it says offense generally, number two, 
parental notification, if a physician who performs or endorses 
an abortion on a minor who is a resident of a State other than 
the State in which the abortion is performed must provide or 
cause to provide 24-hour actual notice to parents.
    Ms. Collett. The numbering is different that I printed off 
of Thomas, but I see where you are now. I am sorry.
    Yes, it does.
    Mr. Scott. So there is no parental consent law in the State 
in which abortion is being performed, no parental consent law 
in the teenager's home residence, and yet Federal law is 
requiring a parental notice.
    Ms. Collett. On a minor who is a resident of a State other 
than State in which the abortion is being performed, yes.
    Mr. Scott. Okay. And is there any judicial bypass in that?
    There can't be any judicial bypass, because you don't have 
a system in either State; is that right?
    Ms. Collett. It does not appear to be the case, although 
most States have emancipation laws, so you can get an order of 
partial emancipation. That is done in numerous States.
    There are at least two States that have parental 
involvement laws that have no judicial bypass in them.
    Mr. Scott. Rev. Ragsdale, can you explain whether it is 
better or worse for a teenager to be accompanied when they go 
to get an abortion?
    Rev. Ragsdale. Accompanied by an adult? Yes, we want 
teenagers to have support, adult support, preferably from their 
parents. When that is not safe or not possible, we would like 
them to have other adult support. To ask a teenager to undergo 
any significant decision, and any medical procedure without 
adult support, seems to us uncharitable and unwise.
    Mr. Franks. We appreciate the witnesses here. We appreciate 
your time today.
    I always think it is important sometimes just to restate. 
This bill essentially says that someone cannot arrogate unto 
themselves the parent's role of taking a minor girl across 
State lines for an abortion without the parent's knowledge. I 
am not even sure why we debate that sometimes. It doesn't seem 
like we have come very far at times.
    But in any case, I thank the witnesses.
    And without objection, all Members will have 5 legislative 
days to submit to the Chair additional written questions for 
the witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so that the answers may be made 
part of the record.
    Without objection, all Members will have 5 legislative days 
with which to submit any additional materials for inclusion in 
the record.
    And with that, again, I thank the witnesses. I thank the 
Members and observers.
    And this hearing is now adjourned.
    [Whereupon, at 10:43 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Trent Franks, a Representative in 
 Congress from the State of Arizona, and Chairman, Subcommittee on the 
                              Constitution
    The Child Interstate Abortion Notification Act, more 
commonly known as ``CIANA,'' is a modest measure to prevent the 
transportation of a minor across state lines to avoid parental 
consent laws that apply to abortion procedures. This law is 
consistently supported by approximately 70% of the American 
people in national opinion polls.
    More than 30 states have made it clear through legislation 
that parents have the right to know whether their daughters are 
trying to undergo abortions. Parents play a critical role in 
the well-being of their daughters, particularly in the abortion 
context. I quote the bill's sponsor, Ms. Ros-Lehtinen: ``As 
mother and a grandmother, I understand the importance of the 
unconditional love and support that parents can give to their 
children. This responsibility is non-negotiable and non-
transferable. This bill assures young women that they are not 
alone if they ever find themselves contemplating undergoing an 
abortion.'' (unquote)
    Parental notification laws have proven to be effective at 
lowering the abortion rate among minors, and therefore they are 
effective at lowering the attendant risks that accompany 
abortion. Abortion is a serious surgical procedure, with 
physical and psychological risks, some of which can be 
especially detrimental when experienced at a young age. These 
include increased risk of breast cancer, extremely pre-term 
birth in subsequent pregnancy (that is, delivering at 28 weeks 
gestation or less), and suicide.
    Where a woman experiences an abortion early in life, she 
can lose the protective effect against breast cancer that a 
full term pregnancy provides with the inherent changes in 
breast tissue. Many developed countries legalized abortion in 
the early 1970s, and breast cancer rates have increased as much 
as 80% since the 1970s in these same countries.
    Likewise, where a woman has one induced abortion, she is 
50% -70% more likely to experience an ``extremely pre-term 
birth'' (delivery at 28 weeks or earlier) when she later 
attempts to carry a wanted child to term. This could be due to 
damage to the cervix during abortion, rendering it less 
competent. Where a woman has two abortions, she is 160% more 
likely to have an extremely pre-term birth.
    An extremely pre-term birth carries greatly increased risks 
for many serious health issues. For example, babies who are 
extremely pre-term have 38 times the risk of cerebral palsy 
than babies born full-term, in addition to increased risk for 
autism and mental retardation. Note that abortionists perform 
abortions on black women at approximately five times the rate 
of white women, and black babies therefore have four times the 
risk of extremely pre-term birth. Also note that the danger of 
subsequent premature birth is greater where the abortive woman 
is a girl under seventeen years of age. Premature birth rates 
are up greater than 43% since Roe v. Wade became law. Forty-
nine studies worldwide confirm the abortion/premature birth 
causal link.
    Next, abortion and youth suicide are correlated. A study by 
two economists appearing in the January 18, 2012 online version 
of the Journal of Economic Inquiry shows that parental 
involvement laws are correlated with a decrease the incidence 
of teen suicide. ``The adoption of a law requiring a parent's 
notification or consent before a minor can obtain an abortion 
is associated with an 11%-21% reduction in the number of 15- 
through 17-year-old females who commit suicide.''
    We must enable parents to protect their daughters from an 
invasive surgical procedure that has significant, and sometimes 
deadly hidden costs.





                                <F-dash>

      Prepared Statement of the Honorable Ileana Ros-Lehtinen, a 
          Representative in Congress from the State of Florida
    I would like to thank the House Constitution Subcommittee 
for holding this hearing. The Child Interstate Abortion 
Notification Act (CIANA) is an important bill and I am pleased 
it is receiving the serious consideration it deserves. CIANA 
deals not only with abortion, but also with parental rights. 
This bill would make it a federal offense to knowingly 
transport a minor across state lines with the purpose of 
obtaining an abortion and circumventing the parental consent 
and/or notification laws of the minor's home state. It would 
prohibit doctors from performing abortions on out of state 
minors without obtaining parental consent for the procedure. 
This requirement would apply to all out of state abortions. 
Physicians would be exempted from these requirements if the 
minor has a judicial bypass from their home state, the minor 
claims to have been abused by a parent and the doctor informs 
state authorities or if the minor's life is immediately 
endangered by the continuation of the pregnancy.
    Parents are entitled to the right of being involved in 
their child's life. Responsibility to guide and direct their 
children's development belongs to the parents. This 
responsibility is non-negotiable and non-transferable. 
Currently, minors cannot get a tattoo without parental consent. 
Children cannot even take aspirins for headaches at their 
school without prior authorization from parents. However, that 
same minor can be taken across state lines to obtain an 
abortion without so much as a phone call to her mother or 
father. This is unacceptable and fundamentally corrosive to the 
institution of the family. More than 30 states have passed laws 
that require either parental notification and/or consent before 
a minor can undergo an abortion procedure. Moreover, in poll 
after poll a majority of the American people have made it clear 
that parents should be involved if their minor daughter is 
considering terminating her pregnancy. As mother and a 
grandmother, I understand the importance of the unconditional 
love and support that parents can give to their children. This 
bill assures young women that they are not alone if they ever 
find themselves contemplating undergoing an abortion. Having 
this right ripped away by individuals seeking to confuse, and 
at times even coerce, minors is criminal and the federal 
government must recognize it as such. Predatory and bullying 
tactics by a former boyfriend, or his parents, have led to 
young women being rushed into a decision they ultimately would 
not have chosen if allowed the chance to reflect and consult 
with their families.
    As a pro-life advocate, I believe that innocent life is 
sacred and unique. The precious gift of life is something that 
the unborn are entitled to through their inherent dignity as 
human beings. Congress has had the courage and wisdom to ensure 
this basic precept. Through legislation prohibiting the use of 
federal funds for abortions this body has unequivocally stood 
by the rights of the unborn. CIANA aims to resolve a gaping 
hole in Congress' long tradition of supporting pro-life issues.
    This legislation is neither radical nor draconian. On the 
contrary, this legislation is borne out of common sense and 
affirming our commitment to the unborn and to the rights of 
parents everywhere. Once again, I thank the House Constitution 
Subcommittee for convening this hearing and I look forward to 
working with my congressional colleagues as we move forward on 
consideration of this important legislation.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                 <all>

</pre></body></html>
